No. 19In the

Supreme Court of the United States
A TOP NEW CASTING, INCORPORATED,
Petitioner,
v.
BODUM USA, INCORPORATED,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

James D. Benak, Esq.
Counsel of Record
227 West Monroe Street, Suite 3650
Chicago, Illinois 60606
(312) 574-1000
jbenak@tetzlafflegal.com
Counsel for Petitioner

290682

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
This is a trade dress case. The Seventh Circuit
affirmed the decision of the District Court that PlaintiffAppellee Bodum USA, Inc. owned a trade dress in the
design of the “Chambord” French press coffee maker. The
District Court found that Bodum had satisfied its burden
of proof that the Chambord design was not functional as
required by this Court’s decision in TrafFix Devices, Inc.
v. Mktg. Displays, Inc., 532 U.S. 23 (2001). The Seventh
Circuit agreed, deciding that the materials used to
manufacture the Chambord product did not confer a cost
or quality advantage. In Apple Inc. v. Samsung Elecs. Co.,
Ltd., 786 F.3d 983 (Fed. Cir. 2015), rev’d and remanded
on other grounds, 137 S. Ct. 429, 196 L. Ed. 2d 363 (2016)
the Federal Circuit applying Ninth Circuit law rejected
Apple’s argument that the cost of materials used to create
a durable iPhone affected the cost of the design: “For the
design elements that comprise Apple’s unregistered trade
dress, Apple points to no evidence in the record to show they
were not relatively simple or inexpensive to manufacture.”
786 F.3d 983, 992. The Seventh Circuit’s decision departs
from this Court’s decision in TrafFix. Furthermore, the
decision has created a conflict between the decisions of the
Seventh Circuit and the Federal Circuit (applying the law
of the Ninth Circuit) on Plaintiff’s burden under TrafFix
to show that the design does not “affect the cost or quality
of the device.” The questions presented are:
1.

Did the Seventh Circuit depart from this Court’s
holding in TrafFix when it decided that a trade dress
does not confer a cost advantage based solely upon
proof of the relatively high overall cost of the product
manufactured with expensive materials, rather than

ii
upon proof that the design was not the simplest or
least expensive to produce?
2.

Does the Seventh Circuit’s decision, that the cost of
expensive materials used in manufacture of a trade
dress are not relevant to Plaintiff’s burden to prove
that the trade dress is not the simplest or least
expensive to manufacture, conflict with the Federal
Circuit’s decision applying Ninth Circuit law in Apple?

iii
PARTIES TO THE PROCEEDING
Petitioner, Defendant below, is A Top New Casting,
Incorporated, at the time of trial a New York corporation
(hereinafter “Petitioner” or “A Top”).
Respondent, Plaintiff below, is Bodum USA ,
Incorporated, a Delaware corporation (hereinafter
“Respondent” or “Bodum”).

iv
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of the Supreme
Court of the United States, Petitioners make the flowing
disclosure:
Petitioner does not have any parent companies, nor
does any publicly held company own ten percent or more
of its stock.

v
RELATED CASES
Bodum USA v. A Top New Casting, Incorporated,
No. 1:16-cv-02916, United States District Court for the
Northern District of Illinois. Judgment entered August
23, 2018.
Bodum USA, Incorporated v. A Top New Casting,
Incorporated, No. 18-3020, United States Court of
Appeals for the Seventh Circuit. Judgment entered June
12, 2013.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . 4
I.

The Seventh Circuit’s Decision in this
Case Erodes the Holding of TrafFix that a
Plaintiff in a Product Configuration Trade
Dress Case Must Prove that the Design Does
Not Confer a Cost or Quality Advantage  . . . . . . 5

vii
Table of Contents
Page
II. The Seventh Circuit’s Decision that the Cost
of Materials Used to Produce a Product
Configuration Trade Dress Is Not Relevant
to Plaintiff’s Burden to Prove that the
Design Did Not Confer a Cost Advantage
Conflicts with the Holding of Apple . . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

viii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, FILED
JUNE 12, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION FILED
AUGUST 23, 2018  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22a
A PPEN DI X C — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, FILED
AUGUST 21, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26a
A PPEN DI X D — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, DATED
JUNE 6, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Apple Inc. v. Samsung Elecs. Co., Ltd.,
786 F.3d 983 (Fed. Cir. 2015) . . . . . . . . . . . . . . . passim
TrafFix Devices, Inc. v. Mktg. Displays, Inc.,
532 U.S. 23 (2001) . . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes, Regulations, and Rules
15 U.S.C. 1125 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. 2101(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FRCP Rule 50 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully petitions this Court for a writ
of certiorari to review the opinion and judgment of the
United States Court of Appeals for the Seventh Circuit in
this case. This Court’s review is important to address the
Seventh Circuit’s departure from this Court’s landmark
trade dress decision in TrafFix and to resolve the conflict
between the Seventh Circuit’s decision and the Federal
Circuit’s decision under Ninth Circuit law in Apple.
OPINIONS BELOW
The opinion of the District Court denying Petitioner’s
FRCP Rule 50 Motion for New Trial was entered on June
6, 2018. See Appendix D. The opinion of the Seventh
Circuit affirming the District Court ruling was entered
on July 12, 2019 and is published at 927 F.3d 486 (7th Cir.
2019). See Appendix A.1
JURISDICTION
The United States Court of Appeals for the Seventh
Circuit entered its judgment on July 12, 2019. Petitioner
timely filed this petition for writ of certiorari on
September 10, 2019. See 28 U.S.C. 2101(c). This Court has
jurisdiction to review the judgment of the United States
Court of Appeals for the Seventh Circuit pursuant to 28
U.S.C. 1254(1).

1. References to the attached appendix include the
appendix and page number followed by the suffix “a”.

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Lanham Trademark Act, § 1125(a)(3):
“In a civil action for trade dress infringement under
this chapter for trade dress not registered on the principal
register, the person who asserts trade dress protection
has the burden of proving that the matter sought to be
protected is not functional.”
STATEMENT OF THE CASE
In the landmark decision of TrafFix Devices, Inc. v.
Mktg. Displays, Inc., 532 U.S. 23 (2001), this Court stated
that “a feature is . . . functional when it is essential to the
use or purpose of the device or when it affects the cost or
quality of the device.” 532 U.S. 23, 33. Following TrafFix,
the Federal Circuit, applying Ninth Circuit law held that
a plaintiff in a trade dress case must show that its design
did not result from a “comparatively simple or inexpensive
method of manufacture.” Apple Inc. v. Samsung Elecs.
Co., Ltd., 786 F.3d 983, 992 (Fed. Cir. 2015), rev’d and
remanded on other grounds, 137 S. Ct. 429, 196 L. Ed.
2d 363 (2016). Rejecting Apple’s argument that the cost of
materials used to create a durable iPhone affected the cost
of the design, the Federal Circuit held: “For the design
elements that comprise Apple’s unregistered trade dress,
Apple points to no evidence in the record to show they were
not relatively simple or inexpensive to manufacture.” 786
F.3d 983, 994.
The case at bar was tried to a jury. The jury returned
a verdict of willful infringement. On Petitioner’s motion

3
for new trial, the District Court held, “Assuming the law
requires a finding of no cost or quality advantage from the
claimed trade dress as a prerequisite to a determination
of non-functionality—a point the Court need not decide—
Bodum offered evidence from which a reasonable jury
could make such a finding.” D36a. The Seventh Circuit
agreed with the District Court, without addressing the
lack of any evidence in the record that Bodum’s design
was not relatively simple or inexpensive to manufacture.
Instead, the Seventh Circuit distinguished Apple from
the present case:
The Federal Circuit, however, noted that
the difficulties plaintiff encountered in its
manufacturing process resulted from its
choice to use certain materials to improve the
durability (i.e., the function) of its product. Id.
Thus, this evidence did not address any cost
advantages or disadvantages of plaintiff’s
design. Here, however, Bodum introduced
evidence that French presses can still function
when made out of other materials, like plastic,
and that the metal and glass used for the
Chambord design do not confer any particular
cost or quality advantage for the product.
A14a
The District Court and the Seventh Circuit ignored
the rule in TrafFix requiring that a plaintiff in a
trade dress case prove that the design did not result
from a “comparatively simple or inexpensive method
of manufacture.” The Seventh Circuit erroneously
distinguished Apple, ignoring that Bodum had failed—just

4
like Apple—to point to any evidence in the record to show
that its design was not relatively simple or inexpensive
to manufacture. Just like Apple, Bodum relied on costs
of manufacture that had nothing to do with its claimed
trade dress. The Seventh Circuit’s decision in the case
at bar departs from TrafFix and directly conflicts with
the decision of the Federal Circuit applying the law of
the Ninth Circuit in Apple. Bodum failed to introduce
evidence of the cost of its design and the Seventh Circuit’s
attempt to distinguish Apple by stating that the cost of
the materials conferred no cost advantage is an erroneous
interpretation of this Court’s holding in TrafFix and the
Federal Circuit’s holding in Apple.
This case is important because the Seventh Circuit’s
decision would grant perpetual monopolies to functional
products by ignoring the requirement of TrafFix and
Apple that no product configuration can be granted trade
dress protection unless the plaintiff proves that it does
not confer a cost advantage.
REASONS FOR GRANTING THE WRIT
The Seventh Circuit’s decision in the case at bar erodes
this Court’s landmark trade dress decision in TrafFix and
conflicts with the Federal Circuit’s decision applying Ninth
Circuit law in Apple. Petitioner respectfully submits that
this Court should grant certiorari to address the Seventh
Circuit’s departure from TrafFix and the conflict between
the Seventh and Ninth Circuits on the issue of a trade
dress plaintiff’s burden to prove that a claimed product
configuration trade dress does not confer a cost advantage.

5
I.
THE SEVENTH CIRCUIT’S DECISION IN
THIS CASE ERODES THE HOLDING OF
TRAFFIX THAT A PLAINTIFF IN A PRODUCT
CONFIGURATION TRADE DRESS CASE MUST
PROVE THAT THE DESIGN DOES NOT CONFER
A COST OR QUALITY ADVANTAGE
As this Court recognized in TrafFix, “[t]rade dress
protection must subsist with the recognition that in many
instances there is no prohibition against copying goods
and products.” 532 U.S. 23, 33. At the core of TrafFix
is the recognition that a “‘product feature is functional’
and cannot serve as a trademark ‘if it is essential to the
use or purpose of the article or if it affects the cost or
quality of the article.’” 532 U.S. 23, 32. In this case, the
District Court held that it was unnecessary to find that
the trade dress conferred no cost of quality advantage:
“Assuming the law requires a finding of no cost or quality
advantage from the claimed trade dress as a prerequisite
to a determination of non-functionality—a point the Court
need not decide. . .” D36a. The District Court then went
on to find that alternative designs were sufficient proof
that the Chambord design conferred no cost or quality
advantage.
Proof of non-functionality requires proof that the
trade dress is not essential to the use or purpose of the
device and that it does not affect the cost or quality of
the device, i.e., does not confer a cost advantage. The
District Court failed to recognize that the two prongs
of functionality are stated in the disjunctive, and proof
of non-functionality requires that the plaintiff disprove

6
both elements. The District Court therefor erred when
it required no proof that the design did not confer a cost
or quality advantage and was not the cheapest way to
manufacture the Chambord. In fact, there was no proof
in the record that the design itself—as opposed to the
materials used to produce the product—was not the
simplest or least expensive to produce.
This was the main point on appeal—that there was
no proof that the design was not the simplest and least
expensive way to produce the Chambord. The only
evidence in the record was the total cost of the Chambord,
produced with its expensive glass and chrome plated metal.
The Seventh Circuit was untroubled with the lack of proof,
holding that the materials from which the Chambord was
made did not confer a cost advantage. A15a. Whether or
not the materials conferred a cost advantage, however,
is not the correct analysis. The correct analysis under
TrafFix is whether the product configuration confers a
cost advantage. There was no proof in the record that
the Chambord was not the cheapest design to produce,
independent of its materials.
The decision of the Seventh Circuit in the case at bar
relieves plaintiffs in product configuration trade dress
cases of the burden of demonstrating that the claimed
trade dress does not confer a cost advantage. Proof that
the product as produced is expensive proves nothing
about the design and circumvents this Court’s holding in
TrafFix. Imagine a product configuration trade dress in
a pencil or pen manufactured with gold—the cost of the
product would not be the cost of the design. A plaintiff
claiming a product configuration trade dress under
the Seventh Circuit’s standard need only show that the

7
product as produced is expensive, not that the design
is not the cheapest way to produce the product. This is
particularly true where, as here, the proof demonstrated
that the product could have been produced from cheaper
materials.
“This burden of proof gives force to the wellestablished rule that trade dress protection may not be
claimed for product features that are functional.” 532
U.S. 23, 29. The perpetual monopoly of a trade dress
for a functional product is anticompetitive; requiring a
trade dress plaintiff to prove that a product configuration
provides no cost advantage prevents anticompetitive
conduct and promotes competition. The Seventh Circuit’s
decision would grant perpetual monopolies to functional
products, contrary to the holding in TrafFix and to
the detriment of competition and the public’s right to
significant advances in technology in the public domain.
532 U.S. 23, 29.
II.
THE SEVENTH CIRCUIT’S DECISION THAT
THE COST OF MATERIALS USED TO PRODUCE
A PRODUCT CONFIGURATION TRADE DRESS IS
NOT RELEVANT TO PLAINTIFF’S BURDEN TO
PROVE THAT THE DESIGN DID NOT CONFER
A COST ADVANTAGE CONFLICTS WITH THE
HOLDING OF APPLE
Following TrafFix, the Federal Circuit applying
Ninth Circuit law held that the cost of expensive
materials to manufacture a product are not part of a
product configuration trade dress and cannot be used to

8
demonstrate that the product confers no cost advantage.
Apple contends that “[t]he iPhone design did
not result from a ‘comparatively simple or
inexpensive method of manufacture’” because
Apple experienced manufacturing challenges.
Appellee’s Br. 61 (quoting Talking Rain, 349
F.3d at 603). Apple’s manufacturing challenges,
however, re su lt ed f rom t he du r abi l it y
considerations for the iPhone and not from
the design of the unregistered trade dress.
According to Apple’s witnesses, difficulties
resulted from its choices of materials in using
“hardened steel”; “very high, high grade of
steel”; and, “glass that was not breakable
enough, scratch resistant enough.” Id. (quoting
J.A. 40495–96, 41097). These materials were
chosen, for example, for the iPhone to survive
a drop . . .
The durability advantages that resulted from
the manufacturing challenges, however, are
outside the scope of what Apple defines as
its unregistered trade dress. For the design
elements that comprise Apple’s unregistered
trade dress, Apple points to no evidence in the
record to show they were not relatively simple
or inexpensive to manufacture.
Apple Inc. v. Samsung Elecs. Co., Ltd., 786 F.3d 983, 995
In the case at bar—just as in Apple—there was no
evidence in the record to show that the claimed product
configuration trade dress was not relatively simple or

9
inexpensive to manufacture. The Seventh Circuit’s
attempt to distinguish Apple by finding that the materials
used to produce the Chambord conferred no cost advantage
evinces a misunderstanding of both TrafFix and Apple.
In a product configuration trade dress case, plaintiff
must prove that the design confers no cost advantage, not
that the materials were expensive. Because the Seventh
Circuit failed to follow the important guidance of TrafFix,
and rejected the holding of Apple, its decision would allow
perpetual monopolies to functional products, contrary to
the holdings in TrafFix and Apple.
CONCLUSION
For all the reasons stated above, Certiorari should
be granted to resolve the conflict between the Federal
Circuit’s decision in Apple and the Seventh Circuit’s
decision in the case at bar and thereby clarify this Court’s
important decision in TrafFix.
Dated: September 10, 2019
Respectfully submitted,
James D. Benak, Esq.
Counsel of Record
227 West Monroe Street,
Suite 3650
Chicago, Illinois 60606
(312) 574-1000
jbenak@tetzlafflegal.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED JUNE 12, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-3020
BODUM USA, INCORPORATED,
Plaintiff-Appellee,
v.
A TOP NEW CASTING INCORPORATED,
Defendant-Appellant.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division
No. 16-cv-02916 – Matthew F. Kennelly, Judge.
May 30, 2019, Argued
June 12, 2019, Decided
Before Flaum, M anIon, and Barrett, Circuit Judges.
Flaum, Circuit Judge. Bodum USA, Inc. (“Bodum”)
produces and sells what design magazines and art
museums have recognized as an iconically designed
houseware product—the Chambord French press
coffeemaker. Bodum sued A Top New Casting, Inc. (“A

2a
Appendix A
Top”) for selling a French press that Bodum claimed
infringes on its unregistered trade dress in the Chambord.
After a five-day trial, a jury returned a verdict in favor
of Bodum, finding that A Top had willfully infringed on
Bodum’s trade dress in the Chambord and awarding
Bodum $2 million in damages. The district court denied
A Top’s post-trial motion for judgment as a matter of law,
in which A Top argued that Bodum failed to prove the
Chambord design was nonfunctional. A Top also moved for
a new trial because the court excluded evidence of various
utility patents covering French press coffeemakers; the
district court denied this motion as well. We affirm.
I. Background
Plaintiff-appellee Bodum has been selling French
press coffeemakers since the 1970s. A French press is a
nonelectric coffeemaker consisting of a cylindrical carafe
and a plunger attached to a filter screen. The user adds
boiling water to coffee grounds in the carafe and, after
the grounds have steeped, presses the filter down slowly
through the carafe to separate the used grounds from the
brewed coffee.
Bodum began distributing the Chambord, its flagship
French press, in 1983. The Chambord’s design originated
in France in the 1930s and is based on the towers of the
Chambord Chateau, a castle in France’s Loire Valley. Its
features include a metal cage with a band around the top
of the carafe, metal pillars ending in four curved feet, a
C-shaped handle, and a domed lid topped with a spherical
knob. Bodum’s Chambord French press is pictured below:

3a
Appendix A

Bodum acquired exclusive rights to distribute the
Chambord in 1991 and has spent millions of dollars
promoting it in print and television advertisements and
at trade shows worldwide. Bodum sells the Chambord in
department stores, at Starbucks coffee shops, and online,
including through Amazon. The Chambord design has
been recognized as classic by such institutions as Phaidon
Design Classics and the Museum of Modern Art. Bodum
actively polices whatever it believes to be infringement of
this design; it has sent dozens of cease-and-desist letters
over the past twenty-five years and has filed lawsuits
against alleged infringers when they did not stop selling
their products in response to Bodum’s requests.
In 2014, defendant-appellant A Top began selling
a competing French press coffeemaker called the
SterlingPro exclusively through Amazon. The SterlingPro
is similar in appearance to the Chambord, with the same

4a
Appendix A
metal cage, metal pillars ending in curved feet, C-shaped
handle, and domed lid topped with a spherical knob. The
two coffeemakers are pictured side-by-side below, with
the Chambord on the left and the SterlingPro on the right:

Bodum filed a complaint against A Top in the
Northern District of Illinois on March 7, 2016, bringing
claims for trade dress infringement under the Lanham
Act, 15 U.S.C. § 1125(a); common law unfair competition;
and violation of the Illinois Uniform Deceptive Trade
Practices Act, 815 Ill. Comp. Stat. § 510/1 et seq. According
to Bodum’s complaint, A Top intentionally adopted the
overall appearance of the Chambord for its SterlingPro
product, infringing on its unregistered trade dress in the
design. A Top moved for summary judgment on Bodum’s
claims twice, but the district court denied these motions
and the case proceeded to a jury trial on March 28, 2018.

5a
Appendix A
The jury returned a verdict in Bodum’s favor, finding
that A Top willfully infringed on Bodum’s Chambord
trade dress and awarding Bodum $2 million in damages.
A Top timely moved for judgment as a matter of law
under Federal Rule of Civil Procedure 50 and for a new
trial under Rule 59. As relevant here, A Top claimed that
it was entitled to judgment as a matter of law because
Bodum had failed to prove its Chambord trade dress
elements were nonfunctional. And A Top said it was at
least entitled to a new trial because the district court erred
in excluding evidence under Rule 403 of utility patents
that, it said, disclosed the Chambord’s trade dress features
(demonstrating the functionality of those features). The
district court denied both motions on June 6, 2018.
On August 21, 2018, the district court granted
Bodum’s motion for enhanced damages, awarding
prejudgment interest and doubling the damages award
to $4 million, and it denied Bodum’s motion for attorney’s
fees. Further, the court granted Bodum’s request for a
permanent injunction to prevent A Top from continuing
to sell its infringing SterlingPro products. The district
court entered final judgment on August 23, and A Top
timely appealed.
II. Discussion
A Top pursues two arguments on appeal. First, A
Top says that it is entitled to judgment as a matter of law
because Bodum did not meet its burden of demonstrating
that the elements of the claimed Chambord trade dress
were nonfunctional (as required for it to be enforceable

6a
Appendix A
under the Lanham Act). Second, A Top claims that
it is entitled to a new trial because the district court
improperly excluded several utility patents from evidence
under Rule 403.
A.

Functionality of the Chambord Trade Dress

We review de novo the denial of a Rule 50 motion for
judgment as a matter of law. Thorne v. Member Select
Ins. Co., 882 F.3d 642, 644 (7th Cir. 2018). “Because a jury
has rendered a verdict, we view the evidence in the light
most favorable to that verdict.” Matthews v. Wis. Energy
Corp., 642 F.3d 565, 567 (7th Cir. 2011). In our review, we
do not make credibility determinations or reweigh the
evidence; we need only determine that there is more than
“a mere scintilla of evidence” to support the verdict. May
v. Chrysler Grp., LLC, 716 F.3d 963, 971 (7th Cir. 2013)
(quoting Hossack v. Floor Covering Assocs. of Joliet, Inc.,
492 F.3d 853, 859 (7th Cir. 2007)). “In other words, our
job is to decide whether a highly charitable assessment of
the evidence supports the jury’s verdict or if, instead, the
jury was irrational to reach its conclusion.” Id.
The Lanham Act permits a civil action against any
person who uses “any word, term, name, symbol, or
device” “in connection with any goods or services” in
a manner which “is likely to cause confusion” as to the
source of those goods or services. 15 U.S.C. § 1125(a)(1)(A).
The Act’s protection extends to a product’s trade dress,
which includes a product design that is so distinctive it
identifies the product’s source. Arlington Specialties,
Inc. v. Urban Aid, Inc., 847 F.3d 415, 418 (7th Cir. 2017);

7a
Appendix A
see also TrafFix Devices, Inc. v. Mktg. Displays, Inc.,
532 U.S. 23, 28, 121 S. Ct. 1255, 149 L. Ed. 2d 164 (2001)
(“The design or packaging of a product may acquire a
distinctiveness which serves to identify the product with
its manufacturer or source; and a design or package which
acquires this secondary meaning ... is a trade dress[.]”).
As with any other trademark, infringement of a product’s
trade dress is actionable under the Act. Arlington
Specialties, 847 F.3d at 418.
At trial, Bodum was required to prove a number of
elements for the jury to find trade dress infringement—
that it owns a valid trade dress in the Chambord design,
that the trade dress is not functional, and that A Top’s
SterlingPro was likely to cause consumer confusion as to
its source. See id. On appeal, A Top does not dispute that
the SterlingPro copies the Chambord. Instead, A Top
only challenges Bodum’s proof on the functionality of its
claimed trade dress.1
Trademark protection for trade dress, unlike patent
and copyright protection, has no time limit; the Act
therefore does not protect features that are necessary for
the use of a product, so as to prevent one competitor from
maintaining a “perpetual and exclusive right to a useful
product feature.” Id. (citing Qualitex Co. v. Jacobson
Prods. Co., 514 U.S. 159, 165, 115 S. Ct. 1300, 131 L. Ed.
2d 248 (1995)). The Supreme Court has explained that
1. In fact, at oral argument, A Top confirmed that it was not
arguing that the SterlingPro did not copy the Chambord, but it
instead argued that it “had a right to copy, right down to the last bolt,”
because Bodum did not have a valid trade dress in the Chambord.

8a
Appendix A
“‘a product feature is functional,’ and cannot serve as a
trademark, ‘if it is essential to the use or purpose of the
article or if it affects the cost or quality of the article.’”
Qualitex, 514 U.S. at 165 (quoting Inwood Labs., Inc. v.
Ives Labs., Inc., 456 U.S. 844, 850 n.10, 102 S. Ct. 2182, 72
L. Ed. 2d 606 (1982)). Even if a claimed trade dress does
not satisfy this first test, “it can still be functional if it is
a ‘competitive necessity,’ that is, if its exclusive use ‘would
put competitors at a significant non-reputation-related
disadvantage.’” Arlington Specialties, 847 F.3d at 419
(quoting TrafFix Devices, 532 U.S. at 32-33)); see also
Specialized Seating, Inc. v. Greenwich Indus., LP, 616
F.3d 722, 727 (7th Cir. 2010) (a design is functional where
a product “looks the way it does in order to be a better
[product], not in order to be a better way of identifying
who made it”). Where, as here, the claimed trade dress
is unregistered, it is the burden of the party asserting
protection to prove that the trade dress is not functional.
15 U.S.C. § 1125(a)(3).
In deciding whether a trade dress element is
functional, we consider several factors:
(1) the existence of a utility patent, expired
or unexpired, that involves or describes the
functionality of an item’s design element; (2) the
utilitarian properties of the item’s unpatented
design elements; (3) advertising of the item that
touts the utilitarian advantages of the item’s
design elements; (4) the dearth of, or difficulty
in creating, alternative designs for the item’s
purpose; (5) the effect of the design feature on
an item’s quality or cost.

9a
Appendix A
Ga.-Pac. Consumer Prods. LP v. Kimberly—Clark Corp.,
647 F.3d 723, 727-28 (7th Cir. 2011) (citation omitted). No
one factor is dispositive. See id. at 728-31 (considering each
factor separately to determine whether it weighs in favor
of or against functionality); Valu Eng’g, Inc. v. Rexnord
Corp., 278 F.3d 1268, 1274-75 (Fed. Cir. 2002).
Bodum claims trade dress protection in the overall
appearance of the Chambord and identifies the following
specific elements as contributing to that distinctive
look: the metal band surrounding the carafe that forms
support feet and the handle attachment, the domed lid,
the rounded knob atop the plunger, and the C-shaped
handle. See Comput. Care v. Serv. Sys. Enters., Inc., 982
F.2d 1063, 1071 (7th Cir. 1992) (where plaintiff seeks to
protect overall appearance of its trade dress, focus of
analysis is on that total appearance rather than individual
design elements in isolation). Bodum does not claim a
trade dress in the cylindrical carafe or the plunger, as it
acknowledges those elements are functional for a French
press coffeemaker.
A Top argues Bodum failed to establish that the
claimed Chambord features are not essential to its use and
that these features do not affect the coffeemaker’s cost
or quality. However, in its argument, A Top consistently
elides the distinction between a product’s “function” in
the everyday meaning of the term and “functional” as
a term of art used in trade dress law. Bodum does not
claim that any French press coffeemaker with a handle,
a domed top, or metal around the carafe infringes on its
trade dress. Rather, it is the overall appearance of A Top’s

10a
Appendix A
SterlingPro, which has the same shaped handle, the same
domed lid, the same shaped feet, the same rounded knob,
and the same shaped metal frame as the Chambord, that
Bodum objects to. Thus, to establish it has a valid trade
dress, Bodum did not have to prove that something like
a handle does not serve any function. It merely needed
to prove that preventing competitors from copying the
Chambord’s particular design would not significantly
disadvantage them from producing a competitive and
cost-efficient French press coffeemaker. See Arlington
Specialties, 847 F.3d at 419.
When properly framed in this manner, Bodum
presented sufficient evidence for a reasonable jury
to conclude that the Chambord’s overall look was
nonfunctional. First, regarding the utilitarian properties
of the Chambord’s design elements, see Ga.-Pac.
Consumer Prods., 647 F.3d at 728, Bodum’s functionality
expert Robert Anders testified about their nonutilitarian nature. He testified that the only functional parts
of the Chambord—the parts that are necessary to make
French press coffee—are the plunger and cylindrical
shape of the carafe. In contrast, Mr. Anders did not
believe the particular C-shape of the Chambord’s handle
worked better than an alternatively shaped handle and,
in fact, testified that he thought the C-shape was “not as
ergonomically designed as it could be.” Mr. Anders further
testified that the dome-shaped lid was an “arbitrary
design” because the lid “could be of any shape” in order to
work, and the metal frame is “absolutely not” necessary
for the Chambord to make French press coffee.

11a
Appendix A
A Top’s expert, Peter Bressler, agreed. He “didn’t
see particularly great advantage in the design of the
handle, but [he] saw an advantage in having a handle.”
Whether it is more advantageous for a French press to
have a handle, however, is not the pertinent inquiry; the
question is whether there is an advantage to having this
designed handle, to which Mr. Bressler agreed there is
not. The same is true of the feet: Mr. Bressler testified he
“didn’t see a particular advantage in the design of the feet,
but [ ] saw the fact that it had feet, which, to [him], was a
utilitarian advantage.” Again, this does not speak to any
advantages of the design of the feet. Overall, Mr. Bressler
testified that “[t]he utilitarian advantages ... are not that
clear.” This evidence weighs in favor of nonfunctionality
because it supports that the claimed Chambord features
are “merely ornamental” and are not necessary to make
the Chambord work better as a French press coffeemaker.
Arlington Specialties, 847 F.3d at 420 (citation omitted). 2
Next, A Top argues that Bodum admitted the
Chambord design was functional in its advertising and thus
failed to meet its burden of proving nonfunctionality. See
Ga.-Pac. Consumer Prods., 647 F.3d at 730 (advertising
2. A Top points to two changes Bodum made to the Chambord in
response to safety issues the United States Consumer Product Safety
Commission raised—reducing the size of the knob and redesigning
the lid to fit deeper into the carafe—as evidence the knob and lid are
functional. However, Bodum could have reduced the size of the knob
and made it a flat disk or redesigned the deep-fitting lid to be flat
instead of domed while still remedying these safety concerns. There
is no evidence that the appearance of the features as redesigned are
necessary for a competitive product, from a use (or cost) perspective.

12a
Appendix A
that touts the design’s “utilitarian advantages” can weigh
in favor of functionality). Indeed, Joergen Bodum, CEO of
Bodum’s parent company, testified regarding Chambord
advertisements describing the product as “functional” and
about an interview he gave in which he described Bodum’s
products as “function-driven.” However, he also explained
that these references to functionality were not invoking
the term’s legal definition but were merely intended to
convey that Bodum’s products work. In fact, Bodum’s
advertising for the Chambord never claimed any of its
design features worked better than other options—for
example, it never claimed the handle is an ergonomic shape
nor that its four curved feet provide stability. Rather, the
advertising focused on the classic look of the Chambord
design. Thus, a reasonable jury could weigh this evidence
against a finding of functionality in the legal trade dress
sense.
Additionally, Bodum introduced a plethora of evidence
regarding the availability of alternative designs, which
supported the Chambord’s lack of functionality. Id. It
introduced as trial exhibits competing manufacturers’
French presses featuring different design elements,
including those made of different materials, with
differently shaped handles, lids, plunger knobs, and
frames, those that do not have transparent carafes
or do not have feet, and those with differently shaped
external structures surrounding the cylindrical carafe.
See Appellee Br. at 4 (pictures of alternatively designed
French presses introduced as trial exhibits). More
importantly, Bodum introduced evidence that both it
and A Top sell French presses with alternative designs

13a
Appendix A
and made of different materials. Thus, there was ample
evidence before the jury in Bodum’s favor on this factor.
Finally, we must consider the cost or quality advantage
test of functionality. See TrafFix Devices, 532 U.S. at 32;
see also Ga.-Pac. Consumer Prods., 647 F.3d at 731. Again,
Bodum presented sufficient evidence from which a jury
could conclude that the Chambord’s design conferred no
cost or quality advantage that made it functional. Bodum’s
expert, Mr. Anders, testified the Chambord design was
“complex” and that there are “simpler ways of doing this.”
He explained the more complex the structure, the more
expensive the product is to manufacture, so he disagreed
with A Top’s expert that the Chambord was the least
expensive method to manufacture a French press. Mr.
Anders also explained that plastic is generally cheaper
to use than metal in manufacturing, so plastic-framed
French presses would be cheaper to manufacture than
the metal-framed Chambord.
Joergen Bodum further supported Mr. Anders’s
opinion in his testimony regarding the many different
French presses Bodum produces. For example, Bodum’s
“Bistro” French press does not have a metal frame, a
domed lid, or a C-shaped handle. Mr. Bodum testified that
the Bistro is less expensive to produce (“maybe less than
half of what it costs to make a Chambord”) and less timeconsuming to produce because it requires less material
than the Chambord. Although the Bistro was a successful
first product for the company, Mr. Bodum testified he
decided to produce the Chambord, a more complex and
expensive product, in addition to the Bistro because he

14a
Appendix A
was interested in its iconic French design. Mr. Bodum also
discussed the manufacturing costs to produce Bodum’s
various French press coffeemakers. He explained that the
Chambord is neither the cheapest nor the most expensive
French press Bodum sells. 3 Thus, Mr. Bodum’s testimony
supported that the Chambord’s overall design conferred
no particular cost advantage that made it functional.4
3. A Top repeatedly states in its brief that Mr. Bodum testified
the Chambord provides a cost advantage. The trial testimony A Top
cites for the proposition, however, does not support this assertion.
Though Mr. Bodum did answer affirmatively that the Chambord
design “gives a cost advantage in manufacturing over other types of
French presses,” it is abundantly clear from the surrounding answers
that Mr. Bodum misspoke in answering this question. Immediately
before this answer, Mr. Bodum explained that the Chambord is
“one of the most expensive” coffeemakers to manufacture, and
immediately after, Mr. Bodum confirmed that the Chambord’s
design does not “result from the fact that it was so inexpensive to
manufacture.” A Top’s efforts to take Mr. Bodum’s misstatement as
an admission are therefore unavailing.
4. A Top relies on Apple Inc. v. Samsung Electronics Co., 786
F.3d 983 (Fed. Cir. 2015), rev’d and remanded on other grounds,
137 S. Ct. 429, 196 L. Ed. 2d 363 (2016), to argue that Bodum’s
evidence regarding the relative costs of the materials used to make
the Chambord is irrelevant and, therefore, that Bodum introduced
nothing to show the Chambord is nonfunctional under the cost
advantage test. Apple, a Federal Circuit case applying Ninth Circuit
law, is not controlling here, but in any event, it is distinguishable. In
Apple, the plaintiff argued that its unregistered trade dress in its
product did not result from a comparatively simple manufacturing
process. Id. at 994. The Federal Circuit, however, noted that the
difficulties plaintiff encountered in its manufacturing process
resulted from its choice to use certain materials to improve the
durability (i.e., the function) of its product. Id. Thus, this evidence
did not address any cost advantages or disadvantages of plaintiff’s

15a
Appendix A
Indeed, Jian Liang, A Top’s CEO, testified that A
Top produces another French press with a plastic frame
that is less expensive than the metal SterlingPro. This
testimony further demonstrates that the Chambord’s
design does not provide a cost advantage. Contrary to
A Top’s argument, Bodum provided evidence sufficient
for the jury to conclude that the Chambord’s appearance
is costlier to manufacture than to design around, which
supports that the Chambord trade dress is not functional.
See Thomas & Betts Corp. v. Panduit Corp., 138 F.3d 277,
297-98 (7th Cir. 1998).
Overall, looking at the evidence in the light most
favorable to the verdict, Bodum presented sufficient
evidence for the jury to have found Bodum’s claimed
trade dress was nonfunctional. We cannot say the jury
was irrational to reach this conclusion, so we affirm the
denial of A Top’s motion for judgment as a matter of law.
B. Exclusion of Utility Patents Evidence
A Top also appeals a related issue—the district court’s
decision to exclude evidence of various utility patents,
which A Top contends demonstrate the functionality of
the claimed Chambord trade dress features. A district
court may exclude relevant evidence where its probative
value is substantially outweighed by, for example, a risk
of unfair prejudice or confusing the issues. Fed. R. Evid.
design. Id. Here, however, Bodum introduced evidence that French
presses can still function when made out of other materials, like
plastic, and that the metal and glass used for the Chambord design
do not confer any particular cost or quality advantage for the product.

16a
Appendix A
403. We review evidentiary rulings for abuse of discretion
and will reverse “only if no reasonable person would agree
with the district court’s view.” United States v. Proano,
912 F.3d 431, 438 (7th Cir. 2019). Furthermore, we accord
Rule 403 determinations “‘special deference,’ because only
‘in an extreme case are appellate judges competent to
second-guess the judgment of the person on the spot, the
trial judge.’” Id. at 440 (quoting United States v. Jackson,
898 F.3d 760, 764 (7th Cir. 2018)).
As noted above, courts consider “the existence of
a utility patent, expired or unexpired, that involves or
describes the functionality of an item’s design element” in
considering whether a claimed trade dress is functional.
Ga.-Pac. Consumer Prods., 647 F.3d at 727-28. 5 As the
Supreme Court has explained, a utility patent is “strong
evidence that the features therein claimed are functional.”
TrafFix Devices, 532 U.S. at 29. In other words, “if the
‘central advance’ claimed in the utility patent matches
the ‘essential feature’ of the trademark, there is strong
evidence that the design is functional.” Ga.-Pac. Consumer
Prods., 647 F.3d at 728 (quoting TrafFix Devices, 532 U.S.
at 30).
Evidence of utility patents came up during Mr.
Anders’s examination. On direct examination, Bodum
asked Mr. Anders a total of seven questions about utility
patents and showed him one patent that A Top’s expert
had cited in his report. Mr. Anders testified that, though
5. A utility patent covers “any new and useful process, machine,
manufacture, or composition of matter, or any new and useful
improvement thereof.” 35 U.S.C. § 101.

17a
Appendix A
a utility patent claiming a feature is evidence that this
feature is functional in the trade dress sense, he did not
find any utility patents covering the Chambord trade
dress features. He believed the patent A Top’s expert
cited only disclosed the plunger rod engaging with the
cylindrical walls of the carafe, which Mr. Anders explained
is a feature in all French presses and has no bearing on
the Chambord trade dress.
On cross examination, A Top asked Mr. Anders
many additional questions about patents and showed him
approximately ten utility patents. A Top questioned Mr.
Anders about whether the patents disclosed the same
elements Bodum claims as part of the Chambord trade
dress—a domed lid, a handle, and a circular knob atop
the plunger. However, counsel only provided Mr. Anders
with the pictures from the patents, not the portion of the
patents explaining the claims. Mr. Anders testified that
he believed utility patents describe the claims in words,
not in the illustrations, so he would not agree the patents
disclosed any elements of the Chambord trade dress based
solely on a review of the pictures.
Bodum’s counsel objected to the admission of the
patents as evidence. The court provisionally admitted
the patents for Bodum’s redirect examination of Mr.
Anders and then heard arguments on the objection at
the next break in the trial. Bodum argued the patents
A Top sought to have admitted were irrelevant because
they were not patents for any Bodum or A Top product
and were not patents of identical designs. Bodum also
argued the proposed exhibits were incomplete as they

18a
Appendix A
were only a portion of the patents. The district court
requested briefing on the issue of whether utility patents
for similar but not identical products are relevant to the
question of functionality and requested complete copies
of each patent.
After reviewing the parties’ arguments and the
entire patents, the district court excluded them from
evidence. The court explained it did not matter that the
patents were for other parties’ products but it did matter
whether the features Bodum claimed as part of its trade
dress were disclosed in the patents. The court asked A
Top to point to language in any of the patents it sought
to admit that claimed as part of the patent “any of the
features that [Bodum] says are part of its trade dress.” A
Top could not, however, find any such language. Though it
continued to insist the patents described knobs and domed
lids, it could not point to any language in the patents to
support this contention. The patent A Top claimed “most
illuminating” described: “The system of Claim 1 or the
cover means comprising removable cover for the drinking
vessel adapted to fit over the top of the vessel, having an
opening through which the push rod extends the sliding
movement relative to the cover.”6 But A Top was unable
to point to a single patent that claimed a domed lid, a
C-shaped handle, feet on the bottom of the carafe, or a
metallic castle-shaped cage—the design elements Bodum
claims as its trade dress.
6. During argument on the objection, A Top described this as
the Banks patent, 5,618,570, which does not appear to be in the record
and is not mentioned in either party’s appellate briefs.

19a
Appendix A
The district court reviewed the jury instruction on
whether a patent discloses the “practical advantages” of
the design and explained that TrafFix Devices requires
that the patent somewhere (not necessarily in the claims
portion of the patent) claim the trade dress features in
some “significant way.” Here, none of the patents did so.
Though some of the French presses in the patent pictures
had a handle, feet, or something on top of the plunger, the
court did not think that “bears on the question of whether
it’s functional as ... trade dress law defines that term.” The
court elaborated:
[T]here is a massive potential for jury confusion
here if these things are used in the way,
frankly, that they were used during the crossexamination of the [ ] expert. You put a picture
up there, that’s got a handle, it’s got a knob,
it’s got a plunger, it’s cylindrical like yours,
that’s not what the inquiry is. The inquiry isn’t
whether somebody has drawn this picture
before. The inquiry is whether ... the features
are claimed in a patent in a way that shows that
they have some sort of a function.
The court then concluded: “I don’t think it’s relevant.
If it’s relevant, it has teeny teeny probative value, massive
potential for jury confusion. It’s excluded under Rule 403.”
The court did not permit A Top to use the patent evidence
with its expert and gave the jury a curative instruction:
“During the cross-examination of witness Robert Anders,
he was shown certain pages from certain patents. I have
excluded those patents from the evidence in this case. You
are not to consider them for any purpose.”

20a
Appendix A
The district court did not abuse its discretion in
excluding this evidence. The patents A Top sought to
introduce do not claim any of the features that comprise the
claimed Chambord trade dress. See TrafFix Devices, 532
U.S. at 29 (utility patents are evidence “that the features
therein claimed are functional” (emphasis added)). That
the patents disclose a plunger and cylindrical carafe are
irrelevant because Bodum does not claim those elements
as part of its trade dress. And the pictures in the patents
showing French presses with handles, domed lids, or
knobs are irrelevant to the legal question of functionality
because the patents do not claim any of those features as
part of the patented invention. Permitting the jury to view
and consider the patents would cause confusion as to the
appropriate inquiry for functionality.
A Top also claims that whether a patent discloses a
feature’s utility is a question of fact for the jury and, as
such, the district court erred in excluding the patents
from the jury’s consideration. In Thomas & Betts, we
explained that a “utility patent must be examined in detail
to determine whether or not the disclosed configuration
is really primarily functional or just incidentally appears
in the disclosure of a patent.” 138 F.3d at 300 (quoting J.
Thomas McCarthy, 1 McCarthy on Trademarks and Unfair
Competition § 6:10 (4th ed. 1996)). There, the district
court determined at summary judgment that because the
claimed feature was part of a patent and did not appear
incidentally, it was primarily a functional feature. Id. On
appeal, we determined that this conclusion “necessitated
a weighing of the evidence,” so a jury should have had
the opportunity to decide how much weight to give the

21a
Appendix A
patent considering all the other evidence presented on the
functionality issue. Id. The district court’s decision here is
consistent with Thomas & Betts. The court excluded the
evidence under Rule 403, an evidentiary rule that tasks
the judge with balancing the exclusion of relevant evidence
with the risk of harm from admission. The district court
did not decide the functionality question; it determined
that the patent evidence, while relevant to the question of
functionality, posed too significant a risk of jury confusion
(an issue not raised by the patent evidence in Thomas &
Betts).
This is not one of those extreme cases in which we
second-guess the trial judge’s weighing of the probative
value of the evidence with the potential for jury confusion
on a Rule 403 issue. We affirm the court’s denial of A Top’s
motion for a new trial.7
III. Conclusion
For the foregoing reasons, we A ffIrm the judgment
of the district court.

7. In its opening brief, A Top cites to the standard of review for a
motion for a new trial based on improper jury instructions. However,
A Top does not develop an argument based on any problem with the
court’s instructions, and so we do not address this issue. See Ienco
v. Angarone, 429 F.3d 680, 685 (7th Cir. 2005).

22a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION
FILED AUGUST 23, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. l:16-cv-02916
BODUM USA, INC.,
Plaintiff,
v.
A TOP NEW CASTING INC.,
Defendant.
Honorable Matthew F. Kennelly
ORDER GRANTING PERMANENT INJUNCTION
Before the Court is a Motion for Permanent Injunction
submitted by Plaintiff, Bodum USA, Inc. (“Bodum”).
WHEREAS, a jury has found that the SterlingPro
F rench pre s s cof fee ma ker i n f r i nged Bodu m’s
CHAMBORD® Trade Dress.
WHEREAS, the jury also awarded Bodum’s damages
for infringement of the CHAMBORD® Trade Dress and

23a
Appendix B
found that A Top willfully infringed the CHAMBORD®
Trade Dress.
WHEREAS, the Court finds that Bodum will suffer
irreparable harm if A Top continues to infringe Bodum’s
CHAMBORD® Trade Dress, that monetary damages
cannot adequately compensate Bodum for the resulting
irreparable harm, and that the balance of equities and
public interest favor entry of a permanent injunction.
NOW THEREFORE, having considered the entire
record in this action, the verdict of the jury, relevant
orders of the Court, the motion, and good cause having
been shown.
IT IS HEREBY ORDERED THAT:
1. A Top and any of its owners, officers, agents,
servants, employees, importers, suppliers, and any person
acting in concert or participating with any of them, who
receive actual notice hereof, are hereby restrained and
enjoined pursuant to 15 U.S.C. § 1116 and Federal Rule
of Procedure 65(d) from:
(a) Infringing, contributing to the infringement of,
or inducing the infringement of Bodum’s CHAMBORD®
Trade Dress (pictured in Exhibit A, hereto), by making,
importing, advertising, marketing, promoting, using,
offering for sale and/or selling in the United States the
SterlingPro French press coffee maker in each of the
designs pictured in the photographs attached hereto as
Exhibit B (the four leg model) and/or Exhibit C (the three-

24a
Appendix B
leg model), or any other product that utilizes Bodum’s
CHAMBORD® Trade Dress.
2. Within ten (10) days of entry of this Order, A Top
shall (a) destroy all SterlingPro French press coffee
makers in the designs identified in Paragraph 1(a)
immediately above, and any other product substantially
similar to those two products in its possession, custody
or control and (b) file with this Court a statement sworn
under oath by an authorized officer certifying that such
products have been destroyed, which statement shall
include: (i) the number of 4 leg SterlingPro French press
coffee makers (Exhibit A, hereto) that were destroyed;
(ii) the number of 3 leg SterlingPro French press coffee
makers (Exhibit B, hereto) that were destroyed; (iii) the
number of any other products substantially similar to
Exhibit A and/or Exhibit B hereto that were destroyed,
and a description and photograph of each such product.
3. This court specifically retains jurisdiction to
enforce, modify, extend, or terminate this Permanent
Injunction as the equities may require upon a proper
showing, and to adopt procedures for resolution of any
dispute as to whether a product not specifically identified
herein is substantially similar to and infringes the Bodum
CHAMBORD® Trade Dress so that it is subject to this
Order.
Dated: August 23, 2018

25a
Appendix B
SO ORDERED,
/s/ Matthew F. Kennelly
HONOR A BLE M AT T H EW F.
KENNELLY
United States District Judge

26a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED AUGUST 21, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No 16 C 2916
BODUM USA, INC.,
Plaintiff,
vs.
A TOP NEW CASTING INC.,
Defendant.
ORDER ON PLAINTIFF’S MOTIONS FOR
AN INJUNCTION, TREBLE DAMAGES,
PREJUDGMENT INTEREST, AND
ATTORNEY’S FEES
After a trial, a jury found in favor of plaintiff Bodum
USA, Inc. and against defendant A Top New Casting
Inc. on Bodum’s claim of trade dress infringement
under the Lanham Act. The jury also found that A Top’s
infringement was willful. It awarded Bodum $2 million,
which it found to be A Top’s profits gained from the trade
dress infringement. In early June 2018, the Court denied
A Top’s motion for judgment as a matter of law and its

27a
Appendix C
motion for a new trial. In the present order, the Court
considers Bodum’s requests to add prejudgment interest;
treble the damage award; award attorney’s fees; and issue
an injunction.
1. Prejudgment interest
Prejudgment interest is presumptively available
to victims of violations of federal law, to ensure full
compensation for the plaintiff and prevent the defendant
from being unjustly enriched. See, e.g., Gorenstein
Enters., Inc. v. Quality Care-USA, Inc., 874 F.2d 431,
436 (7th Cir. 1989). Prejudgment interest is particularly
appropriate when the violation is intentional, as the jury
found in this case. Id.
The Court overrules A Top’s contention that there
should be no interest award because damages were not
a liquidated amount. That is not a barrier to an award
of interest in a case involving a violation of a federal
statute, and Bodum has proposed a reasonably certain
and conservative calculation for determining interest. See
Mem. in Support of Pl.’s Post-Trial Mot. for Prejudgment
Interest, Ex. 1. The Court adopts this calculation and
awards $153,806 in prejudgment interest.
2. Enhancement of damage award
Under the Lanham Act, a plaintiff is entitled to
recover the defendant’s profits and any damages the
plaintiff sustained. 15 U.S.C. § 1117(a). In this case, the
jury’s award was based on A Top’s profits. The governing

28a
Appendix C
statute also says that “[i]f the court shall find that the
amount of recovery based on profits is enter inadequate or
excessive the court may in its discretion enter judgment
for such sum as the court shall find to be just, according
to the circumstances of the case. Such sum . . . shall
constitute compensation and not a penalty.” Id.
The statutory authorization to enhance an award of
damages and the accompanying prohibition on imposing
a penalty is arguably somewhat internally inconsistent.
“It is anomalous to say that an enhancement of damages,
which implies an award exceeding the amount found
compensatory, must be compensatory and not punitive.”
Sands, Taylor & Wood v. Quaker Oats Co., 34 F.3d 1340,
1347 (7th Cir. 1994) (internal quotation marks omitted)
(quoting Taco Cabana Int’l, Inc. v. Two Pesos, Inc., 932
F.2d 1113, 1127 (5th Cir. 1991), aff’d, 505 U.S. 763 (1992)).
The Seventh Circuit has, however, “identified several
significant guideposts.” Sands, Taylor & Wood, 34 F.3d
at 1347. First, the final remedy must “provide a sufficient
deterrent to ensure that the guilty party will not return to
its former ways and once again pollute the marketplace.”
Id. at 1348. Second, enhancement is properly invoked
“when . . . the infringement is deliberate.” Id. at 1349
(quoting Gorenstein Enters., Inc., 874 F.3d at 436). Third,
“the monetary relief granted by the district court must be
great enough to further the statute’s goal of discouraging
trademark infringement but must not be so large as
to constitute a penalty.” Id. (quoting Otis Clap & Son,
Inc. v. Filmore Vitamin Co., 754 F.2d 738, 744 (7th Cir.
1985)). And fourth, enhancement is “a method by which a
fair recovery might be approximated when damages and
profits are not easily ascertainable.” Id. at 1349-50.

29a
Appendix C
Having taken these considerations into account, the
Court finds it appropriate to double the damage award,
to $4 million. In doing so, the Court does not adopt
Bodum’s contention that the jury’s award of $2 million
in profits, rather than the $3 million Bodum requested,
is a basis to increase the award. That suggests the jury
found Bodum’s evidence wanting, not that the award was
objectively inadequate. But that aside, the jury made a
specific finding of willfulness, which was amply supported
by, among other things, evidence of deliberate copying
by A Top. And as Bodum notes, the information that A
Top produced regarding its revenues and expenses was
incomplete and complicated by the company’s insertion,
later during the relevant period, of a related company
(owned by the wife of A Top’s principal) as its “supplier.”
The Court finds that an enhanced award is needed to
fairly compensate Bodum and appropriately deter A Top,
and that doubling the jury’s award (rather than trebling
it as Bodum requests) does not run afoul of the statute’s
prohibition of a penalty.
3. Attorney’s fees
The Lanham Act says that “[t]he court in exceptional
cases may award reasonable attorney fees to the prevailing
party.” 15 U.S.C. § 1117(a). An exceptional case is one that
“stands out from others with respect to the substantive
strength of a party’s litigating position (considering
both the governing laws and the facts of the case) or the
unreasonable manner in which the case was litigated.”
Octane Fitness, LLC v. Icon Health & Fitness, Inc., 134
S. Ct. 1749, 1756 (2014) (concerning an identical provision

30a
Appendix C
in the Patent Act, 35 U.S.C. § 285). There was no litigation
misconduct here; Bodum does not argue otherwise.
Rather, it relies on the jury’s willfulness finding. In the
Court’s view, in this case that is insufficient, without
more, to support a finding that the case was exceptional.
On the other side of the ledger is the fact that A Top had
a straight-faced, though losing, argument that Bodum’s
trade dress was not protectable under the Lanham Act.
Given these circumstances, A Top’s willful copying—the
only factor cited by Bodum to support a fee award—is
insufficient to make the case exceptional within the
meaning of section 1117(a). The Court therefore denies
Bodum’s request for an award of attorney’s fees.
4. Injunction
Finally, the Court grants Bodum’s request for a
permanent injunction. Bodum has shown an irreparable
injury for which it lacks an adequate remedy at law;
the balance of hardships does not weigh against an
injunction; and an injunction will serve, not disserve, the
public interest. The damages awarded by the jury and
the Court only compensate Bodum for past harm. Were
A Top permitted to continue selling infringing products,
Bodum would suffer ongoing harm to its goodwill arising
from the fact that A Top can sell its knock-off products at
a lower price and the ongoing confusion among consumers
regarding the origin of its products. There is no basis to
believe that A Top will stop selling absent an injunction.
And given A Top’s intervening filing of a bankruptcy
petition, there is no basis to believe that Bodum will be
able to recover any future damages for infringement via a

31a
Appendix C
lawsuit. Though A Top will suffer financial harm from an
injunction, it lacks any legal entitlement to make money
from selling products that infringe Bodum’s trade dress.
And the public interest favors enforcement of intellectual
property rights.
Finally, the Court rejects A Top’s argument that
the jury was confused or that it found that only one of A
Top’s models infringed. As Bodum argues, A Top sold its
products only via the Internet, and from the photographs
that typically accompanied the on-line offer of its products,
a consumer cannot tell whether the coffee maker has
three legs or four. Nothing about the jury’s deliberations
or verdict suggested that it found that only one of A Top’s
models infringed Bodum’s trade dress.
For these reasons, the Court will enter an injunction in
the form accompanying Bodum’s motion as Exhibit 2 and
will, at the same time, enter an amended final judgment
ref lecting the enhanced damages and prejudgment
interest. Bodum’s counsel is directed to promptly provide
a Word version of its draft injunction order via Judge
Kennelly’s proposed order e-mail address. The status
hearing set for August 22, 2018 is vacated.
Date: August 21, 2018
/s/					
MATTHEW F. KENNELLY
United States District Judge

32a
D OF THE
APPENDIXAppendix
D — ORDER
UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION, DATED JUNE 6, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION
June 6, 2018, Decided;
June 6, 2018, Filed
Case No 16 C 2916
BODUM USA, INC.,
Plaintiff,
vs.
A TOP NEW CASTING INC.,
Defendant.
ORDER ON DEFENDANT’S
POST-TRIAL MOTIONS
After a trial, a jury found in favor of plaintiff Bodum
USA, Inc. and against defendant A Top New Casting
Inc. on Bodum’s claim of trade dress infringement
under the Lanham Act. The jury also found that A Top’s
infringement was willful. It awarded Bodum $2 million,
which it found to be A Top’s profits gained from the
trade dress infringement. A Top has moved for entry of

33a
Appendix D
judgment as a matter of law under Federal Rule of Civil
Procedure 50(b) and for a new trial under Federal Rule
of Civil Procedure 59(a). The Court denies both motions
for the reasons stated below.
1. Motion for judgment as a matter of law
Entry of judgment as a matter of law under Federal
Rule of Civil Procedure 50 is appropriate only if no rational
jury could have found for the prevailing party. See, e.g.,
Venson v. Altamirano, 749 F.3d 641, 646 (7th Cir.2014).
When reviewing a motion for judgment as a matter of
law, the Court “must draw all reasonable inferences
in favor of the nonmoving party, and it may not make
credibility determinations or weigh the evidence.” Reeves
v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150,
120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000).
A Top’s first contention is that Bodum abandoned
its trade dress by engaging in what is sometimes called
“naked” licensing. A party making such a contention
faces a heavy burden. See Restatement (Third) of Unfair
Competition § 33 cmt. c (Am. Law. Inst. 1995) (“Because
a finding of inadequate control can result in a forfeiture
of trademark rights, courts impose a heavy burden on
the person asserting a lack of reasonable control by a
licensor.”); TMT N. Am., Inc. v. Magic Touch GmbH, 124
F.3d 876, 885 (7th Cir. 1997) (same). To carry this burden,
A Top was required to establish that Bodum “allow[ed]
others to use the mark without exercising reasonable
control over the nature and quality of the goods, services,
or business on which the mark is used by the licensee.”

34a
Appendix D
Eva’s Bridal Ltd. v. Halanick Enters., Inc., 639 F.3d 788,
789 (7th Cir. 2011).
The evidence at trial, viewed in the light most
favorable to Bodum as required, showed the following.
First, Bodum’s license agreement with the licensee in
question contained quality control requirements, noncompliance with which entitled Bodum to terminate the
license. Second, the product manufactured by the licensee
was tested for quality at the time the license agreement
was entered into. Third, Bodum’s principal, Joergen
Bodum, later visited the licensee’s facility to assess its
compliance. And fourth, Bodum sent its outside counsel
to trade shows annually to inspect the licensed products
and report back to the company. Contrary to A Top’s
argument, this case is nothing like Eva’s Bridal, in which
the trademark holder “did not retain any control—not via
the license agreement, not via course of performance.”
Id. at 790-91. A reasonable jury could find that Bodum
retained “reasonable control” over the nature and quality
of the goods made and sold by the licensee.
A Top’s second contention is that Bodum failed to
prove that its trade dress was non-functional, as required
in order for it to be enforceable under the Lanham Act.
The jury was instructed, without objection by A Top, that
Bodum had to prove (among other things) that its trade
dress was not functional. The jury was instructed, again
without objection by A Top, to determine this question
as follows:

35a
Appendix D
A trade dress is functional if it is necessary
to the operation of the product as a whole.
To determine this, you are to consider the
following:
• Are there other designs that could perform
the function equally well? (If so, this is
evidence that the design is not functional.)
• Is there a patent that discloses the practical
advantages of the design? (If so, this
is strong evidence that the design is
functional.)
• Does the desig n prov ide a practical
advantage? (If so, this is evidence that the
design is functional.)
• Has Bodum advertised or promoted the
practical advantages of the design? (If so,
this is evidence that the design is functional.)
• Does the design result from a comparatively
simple, cheap, or superior method of
manufacturing the product? (If so, this is
evidence that the design is functional.)
To determine whether a product’s trade dress
is functional, you should consider everything
that makes up the trade dress.
Instructions to the Jury, dkt. no. 185 at 14.

36a
Appendix D
A Top’s contention in its Rule 50 motion is twofold.
First, it argues that Bodum offered no testimony that
the elements of its claimed trade dress did not confer a
cost or quality advantage and that this is fatal to its claim
of non-functionality. Second, A Top argues that Bodum
offered no testimony that alternative designs offered the
same features as Bodum’s and that this likewise is fatal
to Bodum’s claim of non-functionality.
T he Cou r t d isag rees on both poi nt s. Fi rst ,
Bodum’s expert testified that the company’s design was
“complicated” and “complex” and that “[t]here are a lot
simpler ways of doing this.” He also testified that other
designs would be less complicated and thus less expensive
to make. Bodum also offered testimony by Joergen Bodum
regarding other cheaper ways to make a French press
coffee maker and to the effect that the design claimed to
be protected by trade dress was one of the most expensive
models Bodum produces. Assuming the law requires a
finding of no cost or quality advantage from the claimed
trade dress as a prerequisite to a determination of nonfunctionality—a point the Court need not decide—Bodum
offered evidence from which a reasonable jury could make
such a finding.
Second, there was ample evidence in the record
regarding alternative products that contain the same
features as Bodum’s French press, but with different
designs. This evidence included numerous physical
exhibits—other French press coffee makers—that were
introduced in evidence and shown to the jury. And as
Bodum points out, the functional elements of its product,

37a
Appendix D
the carafe and the plunger, are not part of its claimed
trade dress.
For these reasons, the Court denies A Top’s motion
for judgment as a matter of law.
2. Motion for new trial
A Top makes three arguments in support of its motion
for a new trial. The Court addresses them in reverse order.
First, A Top contends that the jury was tainted by
media reports prior and during trial regarding a so-called
“trade war” with China and hostile U.S. relations with
China. (The owner of A Top is a Chinese national.) This
point is forfeited, because A Top never raised it during
trial or the jury’s deliberations and, indeed, made no
mention before or during the trial about any possibility
that anti-Chinese bias might affect the case in any way.
Even now, in its post-trial motion, A Top has made no
effort to document the claimed inflammatory publicity
about China and thus has forfeited the point in this way
as well. In addition, the jury was instructed that it should
not be influenced by any person’s national origin, race,
or color, and it was instructed both before and after trial
that it must disregard anything it saw or heard outside
the courtroom. There is no basis to believe that the jury
did not follow these instructions.
Second, A Top notes that the instructions to the jury
and the verdict form did not distinguish between A Top’s
two alleged infringing products, one of which had four

38a
Appendix D
feet and one of which had three. During deliberations,
the jury asked to see one of the products, and a question
was also sent out asking when the design was changed.
From this, A Top infers that the jury must have been
confused, and it criticizes the fact that the verdict form
did not allow separate findings on the two designs. The
short answer to this is that A Top waived any challenge to
the instructions on this point. Specifically, A Top agreed
to the instructions and verdict form as they were given
to the jury (except for two or three unrelated points on
which it made objections); it never sought to distinguish
between the two A Top products in the instructions or
the verdict form. If this were not enough by itself, there
is more: A Top did not suggest, when the jury notes were
sent out during the deliberations, that there was any flaw
in the jury charge or the verdict form along the lines its
now cites.
The Court also notes that A Top is reading into the
jury’s request and question far more than they reasonably
support. The Court’s experience with jury deliberations,
derived from presiding over at least two hundred jury
trials, is that jury notes are quite often sent out not
because the jury as a group has a question, but because a
particular juror has raised a point on which other jurors
seek the Court’s assistance for a response. That aside,
it is wildly speculative to conclude from these two brief
notes that the jury was confused over its options on finding
infringement with respect to the two designs sold by A
Top. If anything, the fact that the jury was willing to ask
questions suggests that if it was confused in the way A Top
suggests, it would have sent out a question focusing on that

39a
Appendix D
point. Finally, if one is going to try to draw an inference
about what the jury—or one or more jurors—was getting
at via the question and request, it is much more likely that
it was considering A Top’s design change in addressing the
question of willfulness. In any event, A Top’s argument
provides no basis to grant a new trial.
Third, A Top challenges the Court’s striking, as
improvidently admitted, evidence of certain utility
patents. The Court addressed this point in detail during
the trial and need not repeat it here, other than to say
that it reaffirms the in-trial ruling. In a nutshell, unlike in
Thomas & Betts Corp. v. Panduit Corp., 138 F.3d 277 (7th
Cir. 1998), cited by A Top, none of the advances claimed in
the patents in question “matche[d] the essential feature[s]
of the [trade dress]” claimed by Bodum. Georgia-Pac.
Consumer Prods. LP v. Kimberly-Clark Corp., 647 F.3d
723, 728 (7th Cir. 2011) (internal quotation marks omitted)
(citing TrafFix Devices, Inc. v. Marketing Displays Inc.,
532 U.S. 23, 30, 121 S. Ct. 1255, 149 L. Ed. 2d 164 (2001).
Finally, the Court observes, as it believes it did during
trial, that the fact that a product feature has a function
does not make it “functional” as that term is understood
in trade dress law. A Top persists in confusing these two
points.
CONCLUSION
The Court denies defendant’s motion for judgment
as a matter of law and its motion for a new trial for the
reasons stated above. All other pending motions remain

40a
Appendix D
under advisement. The ruling date for those motions is
reset to June 15, 2018 at 10:00 a.m.
Date: June 6, 2018
/s/ Matthew F. Kennelly
MATTHEW F. KENNELLY
United States District Judge

